<html>
<title> - PAKISTAN: FRIEND OR FOE IN THE FIGHT AGAINST TERRORISM?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


        PAKISTAN: FRIEND OR FOE IN THE FIGHT AGAINST TERRORISM?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-173

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-742PDF                      WASHINGTON : 2016                          
                                 
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York

                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Zalmay Khalilzad, counselor, Center for Strategic 
  and International Studies......................................     5
Mr. Bill Roggio, senior editor, Long War Journal, Foundation for 
  Defense of Democracies.........................................    16
Tricia Bacon, Ph.D., assistant professor, American University....    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Zalmay Khalilzad: Prepared statement...............     9
Mr. Bill Roggio: Prepared statement..............................    18
Tricia Bacon, Ph.D.: Prepared statement..........................    31

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Prepared statement........................    48
Written response from Tricia Bacon, Ph.D., to question submitted 
  for the record by the Honorable Brad Sherman, a Representative 
  in Congress from the State of California.......................    50

 
        PAKISTAN: FRIEND OR FOE IN THE FIGHT AGAINST TERRORISM?

                              ----------                              


                         TUESDAY, JULY 12, 2016

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the Subcommittee on Asia and the Pacific) 
presiding.
    Mr. Salmon. The subcommittee will come to order.
    Good afternoon. I would like to thank my colleagues for 
joining me in convening this important joint subcommittee 
hearing. Unfortunately, Chairman Poe couldn't join us today, 
but I know he is very interested and engaged on the many 
challenges presented to the U.S. policymakers in Pakistan.
    I would like to ask unanimous consent that his opening 
statement be inserted for the record. And, without objection, 
the hearing record will remain open for 5 business days to 
allow for further statements, questions, and extraneous 
materials for the record, subject to the length limitation in 
the rules.
    As we all know, the United States has spent tens of 
billions in taxpayer dollars in the form of aid to Pakistan 
since 9/11, all in the hope that Pakistan would become a 
partner in the fight against terrorism. Unfortunately, despite 
this significant investment, Pakistani military and 
intelligence services are still linked to terrorist groups.
    While the administration and the Pakistanis argue that 
there have been some successes in the fight against terrorist 
elements, particularly in Shawal Valley, terrorist 
organizations with close ties to Pakistan's military elite have 
been left untouched to the point of thriving while Pakistan's 
governing elite turns a blind eye.
    Today we will discuss the administration's policy toward 
Pakistan and take a closer look at U.S. goals and expectations 
and options with Pakistan. The U.S.-Pakistan relationship has 
always been complicated. Pakistan is an important country of 
over 200 million people. It has nuclear capabilities and is 
strategically located with important neighbors, including 
China, India, and Afghanistan. But this country poses 
challenges that have plagued the United States for decades.
    Given its significance, we can't afford to be spontaneous 
with our policy toward Pakistan as there could be far-reaching 
consequences. At the same time, many of us in Congress are 
unwilling to continue down this same failed path that consists 
of stacks of U.S. aid dollars without much support in the fight 
against terrorists to show for it. To be frank, Pakistan likes 
the United States because for decades we have given them a 
substantial amount of aid, especially to the Pakistani 
military, while they hope that they can prevent us from getting 
too close with India.
    The United States tolerates Pakistan because it claims to 
be in the fight with us on the global war on terror. Recent 
history shows us that while Pakistan is getting money and 
weapons, U.S. goals in the war on terror are sadly lacking, and 
Pakistan may in fact be using the assets we provide them to 
undermine some of our strategic diplomatic efforts in the 
region.
    Pakistan claims to be fighting terrorism, but they refuse 
to fight some groups who we know to be terrorists. Many 
observers see Pakistani forces as selective in the terrorist 
groups it fights, leaving others to continue to wreak havoc, 
especially when those groups target India.
    Let us not forget that Pakistan was less than helpful in 
the hunt and ultimately demise of Osama bin Laden. And, to this 
day, they are holding Dr. Shakil Afridi under arrest, a hero to 
our country, for aiding in bin Laden's capture. Patience is 
growing very thin.
    The recent failure to get consensus on the proposed F-16 
sale is evidence of the newly endemic weariness where Pakistan 
is concerned. If our current efforts in Pakistan are not 
producing the results we seek, then what are our options? We 
could simply turn the money off, saving taxpayers billions of 
dollars. We could enforce sanctions or designate Pakistan as a 
State Sponsor of Terrorism. Sanctions were used in the '90s but 
without much effect.
    I hope to hear from our witnesses as to what sort of stick 
and carrot approach might actually work with Pakistan, so we 
can have a strategic partnership on issues of mutual interest.
    Fifteen years have passed since 9/11. Billions of dollars 
have been spent, and far too little change has occurred in 
Pakistan. Should we continue our failed policy and attempt to 
convince ourselves that Pakistan will one day see eye to eye 
with the United States, or should we look at the U.S.-Pakistan 
relationship through a new lens?
    I look forward to today's constructive discussion to guide 
our policy efforts with Pakistan, and I turn to the ranking 
member, Mr. Sherman, for any comments that he might have.
    Mr. Sherman. Thank you. We have relations with I think 
close to 200 countries. The default position is we don't give 
them money. So those who suggest aid to Pakistan have got to 
show that there is a strong justification for doing so. The 
evidence is not encouraging.
    General Musharraf spoke on television in February about how 
Pakistan supported--provided support for Lashkar-e-Tayyiba, 
also known as LeT, and to the JeM, and essentially said 
terrorism was fine as long as it is directed at India. His 
remarks didn't provoke much of a reaction because much of the 
power structure in Pakistan agrees with him.
    The Pakistani Government, as our chairman just pointed out, 
continues to hold Dr. Afridi. So not only do they shelter bin 
Laden, they punish those who helped us unshelter bin Laden. And 
the military establishment in Pakistan stokes paranoia about 
India, meddles in Afghanistan, and seems to be trying to weaken 
Afghanistan, so as to have a divided Pashtun population.
    Regardless of how we answer the friend or foe question, our 
relationship with Pakistan is important. But keep in mind, you 
would think we would only provide aid to those countries where 
we don't have to ask the question: Friend or foe? But Pakistan 
is a nation of 180 billion people with a history of terrorist 
activities, 100 nuclear weapons, very confused body politic. 
The administration is requesting money for Pakistan in a number 
of different accounts, including 740 million of assistance on 
the civilian side, 265 million on the military side, and aid in 
other categories as well.
    You would think that we would at least condition a large 
portion of this aid on the release of Dr. Afridi and his 
family. Providing more assistance to a government that has 
supported terrorists and has shown itself not very capable or 
serious about combatting terrorism may not be the very best use 
of taxpayer money.
    We should be looking to reorient the money we do spend. I 
would like to focus on three things: Human rights, education, 
and public diplomacy. First, the Pakistani Government has a 
regrettable record of oppressing some of the major components 
of its country, large minorities, including the Sindh and the 
Baloch. Free speech and political dialogue are restricted.
    Extrajudicial killings are common. For example, Anwar 
Leghari, the brother of a dear friend of mine, was assassinated 
in Sindh just last year, and the Pakistani Government has 
closed the file. I want to thank our State Department for at 
least raising a question. They have reopened the file, but that 
doesn't mean they will actually do anything.
    A country with blasphemy laws is just begging individuals 
to claim that minorities have said this or that, unprovable, 
and them impose terrible penalties on someone they happen to 
dislike. It is no surprise that extremism flourishes in this 
environment.
    Second, education. Pakistan must reform its education 
system. Many textbooks contain content that perpetuates 
minority stereotypes and feeds support for Islamic extremism. A 
lack of government-funded schools has led to an increase in the 
number of extremist madrassas in Sindh and other places in 
Pakistan. Girls are often denied education.
    As I proposed I think at our last hearing, if we do provide 
aid, we ought to provide free textbooks, so that parents don't 
have that burden, aren't tempted to send their kids to a 
madrassa, and so that the textbooks, while they may not reflect 
all red, white, and blue values, will at least not contain 
material that would be an anathema to the American people.
    And, finally, it is very hard for corrupt people to steal 
textbooks, especially in a country where the textbooks are made 
free by the American people.
    I co-chair the Sindh Caucus, and so I focused on southern 
Pakistan in particular. And I have worked to make sure that we 
communicate to Sindh and other parts of Pakistan through Voice 
of America in the language people speak in their homes. The 
importance of Pakistan seems to be so overwhelming that we 
spend billions of dollars giving it to a government that 
supports terrorism, but we don't spend $1.5 broadcasting in the 
Sindhi language. What a bizarre approach. What a pro-Islamabad 
approach. What an approach that does not match America's 
interest.
    Finally, if we are going to win over the Muslim world, we 
need to have the State Department maybe hire one or a few 
people--fewer people that are experts in the 1800s European 
diplomacy and hire at least one person whose job description 
says ``understand the Quran, the hadith,'' you don't have to 
write a fatwa but you should have read 1,000 of them.
    To think that we are waging a war for the minds of Muslims 
around the world and haven't hired a single person because of 
their understanding of that religion and how it is used and how 
it is misused shows an insular thinking in a bureaucracy that 
prizes an understanding of the machinations of metronic in 
European diplomacy two centuries ago.
    I yield back.
    Mr. Salmon. Thank you. In the interest of time--I know we 
have got other vote series coming up on the floor very soon--I 
will just yield one more slot before we go to the witnesses to 
the ranking member of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. Thank you, Chairman 
Salmon, for conducting this hearing. I also would like to thank 
Mr. Rohrabacher and--who is here--I guess Mr. Poe as well, 
Ranking Member Sherman, and I would like to thank all the 
members that took the time to be here in this important 
hearing.
    Of course, I would like to thank our panel for being here 
to discuss the topic at hand--Pakistan. Since 9/11, the United 
States' relationship with Pakistan has ebbed and flowed. Over 
the last decade and a half, several missteps have taken both 
sides into controversy, including instances of 
miscommunication, competing national interest, and fundamental 
failure to broaden and deepen the relationship as a whole.
    Indeed, it seems that the two countries trend toward a one-
dimensional transactional relationship centered along security 
concerns, instead of a broad partnership that includes trade 
and cultural linkages, is something that is problematic. 
However, over the last few years, even the security concerns 
have not equated to a smooth relationship. While Islamabad has 
helped the United States capture and kill numerous al-Qaeda 
members, including several senior leaders in its support for 
groups like Taliban, the Haqqani Network, Lashkar-e-Tayyiba, 
these things undermine critical U.S. national security 
interest.
    Further complicating the issue is the fact that both 
leaders of the Taliban were killed or died within Pakistani 
borders, and the former head of al-Qaeda, Osama bin Laden, was 
also killed in Pakistan, only miles from the country's capital. 
There is little reason to suggest that Pakistan is going to 
change its strategic calculus.
    It is critical that we vigorously consider our relationship 
with Pakistan and recognize that Islamabad is a willing and 
able partner in certain areas, while hostile in others. To be 
sure, accepting this paradigm does not mean abandoning Pakistan 
altogether. At stake in the region are some of America's most 
vital national security interests, including ensuring that 
neither Afghanistan nor Pakistan serves as a safe haven for 
global terrorists, keeping Pakistan's nuclear weapons out of 
the hands of terrorists and preventing war between India and 
Pakistan that could potentially go nuclear.
    These interests warrant continued outreach and cooperation 
with Islamabad. To that end, the United States should consider 
a more balanced approach when supplying aid, an approach that 
favors education and economic aid over military assistance. The 
provision of U.S. weapons cannot reshape Pakistan's will to 
maintain its militant proxies on its western border, but those 
weapons do equip Pakistan to challenge India on its eastern 
border.
    I look forward to hearing from our witnesses today and 
seeing how we can shape this relationship to the benefit of 
both countries.
    With that, I yield back.
    Mr. Salmon. Thank you. We are grateful to be joined today 
by Ambassador Zalmay Khalilzad. Appreciate you being here, 
Ambassador. And Mr. Bill Roggio, appreciate you being here. And 
Tricia Bacon.
    And, Ambassador, we will yield the first time to you.

STATEMENT OF THE HONORABLE ZALMAY KHALILZAD, COUNSELOR, CENTER 
            FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ambassador Khalilzad. Thank you very much, Chairman. I want 
to thank the ranking member, the chairman of the Terrorism 
Subcommittee, and all the distinguished members who are here. I 
appreciate the opportunity to appear and to make a few comments 
on a very important and difficult subject, the issue of 
Pakistan.
    As you said, Chairman, it requires a deliberate but frank 
discussion and analysis of where we are and where we need to 
go. I have prepared a testimony, which I will submit for the 
record.
    Mr. Salmon. Without objection, your formal testimony will 
be injected into the record.
    Ambassador Khalilzad. I would like to summarize that 
testimony by making a few points and look forward to the 
discussion.
    While Pakistan, in the aftermath of 9/11, did provide 
significant help in the overthrow of the Taliban and in the 
capture of quite a number of al-Qaeda members, I think it fair 
to say that if one focuses on Afghanistan, which would be the 
burden of my comments today, looking at Pakistan, one can 
conclude now the following.
    First, Pakistan is now a State Sponsor of Terror. There is 
no question that the Pakistani military and the Pakistani 
intelligence agency, the ISI, the Inter-Service Agency, 
supports the Haqqani Network, which we regard--the United 
States has regarded as a terrorist organization. One of our 
former chairmen of the Joint Chiefs called the Haqqani Network 
a virtual arm of the ISI.
    Point two, it is also clear that the Pakistani military and 
Pakistani intelligence provide sanctuary and support for the 
Taliban, which is an extremist organization that provided 
sanctuary for al-Qaeda in the early period, and even recently 
the leader of al-Qaeda, Zawahiri, pledged allegiance to the new 
leader of the Taliban. So the relationship continues.
    And these two steps that Pakistan clearly has taken--it 
used to deny that there were any Taliban in Pakistan. When I 
was Ambassador to Afghanistan, when I went to see President 
Musharraf, and after a long discussion when I raised the issue 
of the Taliban with him, he asked me, ``They are not here. Give 
me their phone number. Give me their address.'' I had to remind 
him that the leadership of the Taliban was called the Quetta 
Shura, which, you know, is a big Pakistani city, and there is 
also--there was Peshawar Shura, which is another big city in 
Pakistan, and the media regularly went and interviewed some of 
these people.
    But, in any case, as you know, more recently he has 
boasted, Mr. Musharraf, that he did obviously help the Taliban 
and the Haqqani Network. But the Pakistani support for these 
two groups has been a critical factor in my judgment in the 
longevity and successes that these two groups have had against 
the United States, against our forces.
    We have lost quite a lot of people, as you know, military 
in particular, but also non-military folks, and they have 
imposed huge financial costs by making the war prolonged and 
significant, requiring us to invest not only life but also 
resources, and it has imposed huge costs also, both military 
and civilian, on the Afghans.
    Those of us who have studied insurgencies and counter-
insurgencies, if there is a sanctuary, it makes it much harder, 
it takes longer, becomes more protracted to defeat that 
insurgency. I am not saying other factors are not important; 
they are. I mean, the question of governance, policies of the 
government in charge, but sanctuaries make it much harder to 
defeat insurgencies.
    So it seems to me that our policy, if I would characterize 
it, as one of engagement, providing support, sometimes 
withholding some assistance, but one of assistance, has not 
produced what we had hoped would be the result in Pakistan, 
which is that they would change policy to bring the Taliban to 
the negotiating table and move against those Taliban that are 
not reconcilable or would not reconcile and then also to move 
against the Haqqani Network. This has not happened.
    So, as a nation, in my view, it is important that we debate 
what to do next. And I believe that we need to consider a 
different policy among our options, and the policy that I think 
is worthy of consideration is one of increasing the cost of 
this policy to Pakistan.
    You know, typically, when you want to discourage bad 
behavior, you have to do things that look like punishment or 
imposing costs to shape a response. And Pakistan has believed 
so far correctly that they can get aid, billions, and get 
support and continue to do these things, and that we would not 
confront them with the choice of either you take our assistance 
or--and you can stop what you are doing or there will be no 
assistance.
    And I think unless we effect fundamentally that calculus, 
that they confront the choice, it is unlikely that they would 
adjust the policy that we require, that the Afghans require, 
and indeed the world requires. I welcome some of the recent 
announcement by the administration and some of the actions, 
such as the drone attack against Mullah Mansour in Pakistan, I 
think that sent a strong message.
    I believe that the administration's effort to isolate 
Pakistan, to pressure it more, is welcome, but I think it is 
insufficient. We need to do more. And more, in my judgment, is, 
one, we need to do additional drone attacks against targets 
that are Haqqani and Taliban related.
    If Pakistan does not move against the Haqqani Network and 
the irreconcilable Taliban, we need to have, in my judgment, 
very sharply focused sanctions against people in these two 
institutions, the military, especially the Army, and the 
intelligence network, were involved in support of the Haqqani 
Network and the Taliban, and that would mean financial 
sanctions and, in my view, also it means travel to the United 
States.
    I think we ought to suspend all non-humanitarian and non-
education assistance to Pakistan. I agree with the ranking 
member that education is very important, and we ought to 
continue with educational assistance, humanitarian assistance, 
but non-education, not only our own, but in IMF I think we need 
to use our influence there to make sure that the next package 
that is likely to come up later this summer or early fall does 
not go through without Pakistan taking the necessary measures 
with regard to these two groups.
    I also think we ought to consider, deliberate, debate 
whether Pakistan should not be put on the list, State 
Department list of sponsors of terrorism. Factually, it is. 
Now, the question is, what are the pros and cons? And I think 
there are costs for us not doing this, because the whole less 
than problem becomes--loses its legitimacy when a state clearly 
is doing something and we are not calling a spade a spade, and 
that has its own cost.
    And I also believe that calling Pakistan a major non-NATO 
ally, given what it is doing, also raises questions of the 
legitimacy of such a designation. We ought to signal that 
without a change on these two issues we would recalibrate, 
reconsider that designation.
    And I would think that we ought to also, as we do with 
regard to North Korea, a country that has nuclear weapons but 
has many hostile and negative domestic and external policies, 
consider as to when we might take the whole issue to the 
Security Council, in collaboration with the Afghans, to 
expose--we have not done as much as we could, in my view, to 
expose the details of how this policy of support for Haqqani 
and for the Taliban are actually conducted by Pakistan and the 
implications, the ramifications of that in terms of the amount 
of damage it has done to fellow Muslims in Afghanistan, besides 
the killings that have taken place of the coalition forces who 
are there.
    I think also, as we think down the road, given that 
Pakistan may choose not to respond favorably to this, we need 
to look at the strengthening cooperation with India on 
terrorism and counterterrorism and on strengthening 
Afghanistan, that it can be hardened as--my judgment is that if 
we do the steps that I have described, it is not out of the 
question that Pakistan might reconsider, because I think if we 
can shake this belief that they have that they can continue to 
be both the beneficiary of U.S. assistance and continue to do 
what they are doing with regard to the Taliban and the Haqqani 
Network, with the view that eventually we will tire out--we 
will get tired, we will leave, and then they can go back to 
imposing a Taliban government on Afghanistan, and the good days 
will be here again from their perspective regionally, we will 
have to look at other ways with others who share our 
perspective on terrorism, particularly India. And I just was 
there last week, very serious discussions, I think we will need 
to take a look at this.
    I understand, Mr. Chairman, as a final point, that this is 
not an easy issue. The administration that I was a part of, we 
tried engagement, too, and assistance in the golden hour after 
9/11 when our credibility was high, we didn't push as hard 
Pakistan at that time, as we should have.
    I think another golden hour may have become available after 
the killing of Mullah Mansour, but by itself I think it is 
insufficient. We need to get Pakistan's attention, and that 
things are different, that they do need to make a choice, and I 
recommended the steps that I did for your consideration.
    Thank you, Chairman.
    [The prepared statement of Ambassador Khalilzad follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Salmon. Thank you very much, Ambassador.
    On the clocks, please look at the amber light and the red 
lights. I am not going to hold you to--this is too important an 
issue, and we want to hear everything that you have to say, but 
I know we have a lot of questions up here, too.
    Mr. Roggio.

STATEMENT OF MR. BILL ROGGIO, SENIOR EDITOR, LONG WAR JOURNAL, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Roggio. Thank you, sir. Chairman Salmon, Ranking 
Members Sherman and Keating, and the rest of the committees, 
thank you very much for having us here today to talk about this 
extremely important issue.
    You properly asked the question of whether Pakistan is a 
friend or a foe, and unequivocally the answer is a foe. 
Pakistan may combat some groups that threaten it--movement of 
the Taliban in Pakistan, Islamic movement in Uzbekistan, groups 
like that that are fighting the Pakistani State. However, they 
support numerous terrorist organizations, organizations that 
are listed by the U.S. Government as foreign terrorist 
organizations.
    In my testimony, I list six and give a brief description of 
the activities, but we can list dozens or scores of groups that 
Pakistan supports in India, in Afghanistan, groups that are 
designated terrorist organizations, groups that provide aid and 
support for al-Qaeda, groups whose leaders serve as the deep 
bench for al-Qaeda and other terrorist groups when their 
leadership is winnowed down via drone strikes by the U.S. and 
Pakistan's tribal areas.
    Again, the evidence is indisputable. Just this weekend, the 
Indians killed a Kashmiri terrorist who is a member of Hizb-ul-
Mujahideen. This is a nasty terrorist organization. And, 
Pakistan, did they welcome this killing? No. In fact, they 
denounced it and referred to him as a Kashmiri separatist. This 
is an individual who recruits online for holy war and is 
recruiting youth and poisoning the youth to conduct terrorist 
attacks.
    And lest we pretend that, well, this has just been in 
Pakistan an issue with Pakistan and Kashmir, it is not. These 
Kashmiri terrorist groups that have been aided by the Pakistani 
State base themselves in Afghanistan. I could list groups--
Lashkar-e-Tayyiba, Harakat-ul-Mujahideen, who the State 
Department said as recently as 2014 is running training camps 
inside Afghanistan.
    These groups are attacking and killing U.S. soldiers, and I 
haven't even touched on groups like the Taliban, the Haqqani 
Network, or the Mullah Nazir Group. These are just small 
groups. I concur--and for the interest of brevity and time--
Ambassador Khalilzad's statements on the Afghan Taliban, 
Haqqani Network, I concur with 100 percent.
    What the Pakistanis are doing, they are playing a fantastic 
shell game. They have this narrative called good Taliban versus 
bad Taliban. The good Taliban is any group that the Pakistani 
likes, and those are groups that don't attack the Pakistani 
State. These are groups that carry out Pakistan's foreign 
policy--Haqqani Network, Afghan Taliban, Mullah Nazir Group.
    And then, even the Pakistan press referred to this, groups 
like Lashkar-e-Tayyiba, Hizb-ul-Mujahideen, Harakat-ul-
Mujahideen--again, I could go down the list. They are 
considered ``good Taliban'' as well. And the bad Taliban, they 
are the ones that fight the Pakistani State. They are the ones 
being targeted in the Shawal Valley, in North Waziristan. When 
the Pakistanis go after these groups, they pretend that they 
are going after the Haqqani Network or the Mullah Nazir Group 
or the Afghan Taliban, but they are not.
    The Pakistanis haven't named a single high, mid-level, or 
low-level leader killed in one of these operations, because 
they haven't killed any of them. They haven't captured any of 
them, although they are selectively targeting in the interest 
of the Pakistani State.
    As a matter of fact, this narrative of the good Taliban 
versus bad Taliban, my Web site, Long War Journal, has been 
banned in Pakistan for 4 years because we have reported on this 
narrative, and it has been an issue that I have not let go of, 
and we are banned because Pakistan has a history of killing 
individuals that expose these types of situations.
    Syed Shahzad was brutally executed by the ISI for his 
reporting on links between Pakistan's Intelligence Service and 
al-Qaeda, and attacks that were occurring within Pakistan. You 
know, Pakistan is not going to change its calculus. These 
groups that they support, they are doing this because they feel 
it is their best chance in countering India, and that is why 
they support them.
    I also believe there is an ideological aspect within large 
elements within the military and intelligence services as well, 
and this is being reported on. So you have this confluence of 
it helps their policy in India, as well as they get the 
ideological, you know, radical jihadist support as well.
    These groups are strategic depth for Afghanistan in case it 
has to go to war, and it uses them in Afghanistan--I am sorry, 
strategic depth within Pakistan against India, and it uses 
these groups also to conduct its policy inside of Afghanistan 
to target and kill U.S. forces and allied forces.
    We have to change our calculus if Pakistan won't change 
theirs, and I concur with Ambassador Khalilzad's statements we 
need to--I believe all funding should stop. We should put a 
brake on the situation until we can really get a handle on it. 
Money is fungible. If we are funding Pakistani education, they 
can fund Pakistani militants with the money they are saving.
    We have to consider sanctions. We have to consider the 
possibility of state sponsorship of terrorism. Do we limit or 
cut off trade with Pakistan? Do we restrict Pakistani's travel 
to the United States, cut off visas, student visas? All of 
these options should be on the table, unless Pakistan changes 
its habits and its--we have been enabling the Pakistani State 
for 15 years now, nothing has changed, and it has only gotten 
worse.
    Thank you very much.
    [The prepared statement of Mr. Roggio follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                             ----------                              

    Mr. Salmon. Thank you.
    Dr. Bacon.

STATEMENT OF TRICIA BACON, PH.D., ASSISTANT PROFESSOR, AMERICAN 
                           UNIVERSITY

    Ms. Bacon. Good afternoon. It is an honor to appear before 
you today to discuss Pakistan's policies toward militant 
groups. Thank you very much for this opportunity.
    After the terrorist attack on Easter Sunday in Lahore that 
killed 70 people, Pakistani leaders reiterated their pledge to 
cease their dual track policy of treating some groups as having 
utility and going after only those that opposed the Pakistani 
State. However, unfortunately, the opposite has occurred. These 
distinctions have grown hardened, and the Pakistani State is 
not willing to reevaluate them.
    Most importantly, the calculus of the Pakistani Army, the 
primary institution in Pakistan that wields power over these 
policies, remains unwavering. It is evident that no terrorist 
attack in Pakistan is large enough to cause them to reevaluate 
their position vis-a-vis their militant proxies. Instead, 
relations with the four major proxy groups--Lashkar-e-Tayyiba, 
Jaish-e-Mohamed, the Haqqani Network, and the Afghan Taliban--
will remain a deeply entrenched component of Pakistan's 
national security policies.
    Today I would like to outline the Pakistani security 
establishment's three-prong calculus vis-a-vis these 
organizations, in part because in order to get Pakistan to 
truly change its behavior, the United States will have to 
effect all three of these aspects of its calculus.
    First and foremost, as is well-known, Pakistan's security 
establishment judges groups based on their utility vis-a-vis 
India. This is not simply about Kashmir. This is also about 
deep-seated fears that India is inherently aggressive toward 
Pakistan. This extends to Pakistan's support to the Afghan 
Taliban and the Haqqani Network, which stems from fears of 
Indian encirclement and a desire to prevent India from 
expanding its influence on Pakistan's western border.
    As the military's efforts to achieve conventional parity 
with India grows increasingly futile, and the security 
situation in Afghanistan continues to deteriorate, Pakistan 
will remain committed to these policies.
    Second, the security establishment evaluates militant 
groups based on how they affect the threat within Pakistan. 
Though there is extensive cross-fertilization between groups 
hostile to Pakistan and those seen as having utility, the so-
called good militants not only largely abstain from violence 
within Pakistan, some also discourage other groups from 
engaging in violence in Pakistan. Breaking ties with the proxy 
groups runs the risk that they will turn their guns inward, 
dangerously compounding the terrorist threat within Pakistan.
    Third, the Army raised its capability to dismantle and 
defeat militant groups. Because the civilian institutions are 
still not capable of truly dealing with terrorism, this task 
will fall to the Pakistani Army. Unfortunately, a military 
approach alone will be insufficient to tackle these four 
groups, and possibly could be counterproductive in efforts to 
do so.
    It is worth briefly noting that relationships have evolved, 
especially since the 1990s when the Army provided extensive 
active assistance to a number of proxy organizations. This 
included resources, weapons, training, and even cover fire to 
enable cross-border infiltrations. In essence, it operated in 
the trenches with militant groups. U.S. and international 
pressure has shifted the way these relationships function.
    By far, the most important asset that the Pakistani State 
continues to provide is safe haven and protection. The amount 
of active assistance has decreased. However, in this current 
environment, safe haven is also the most important asset that 
Pakistan could provide for these groups. All four organizations 
are highly capable and almost entirely self-sufficient other 
than their need for safe haven.
    They have other sources of funding and weapons and 
equipment, as well as a sizeable cadre of capable and 
experienced operatives. They no longer rely on the Pakistani 
State for these things. The Pakistani Army did its job well. 
The remaining asset that they need and that they receive is 
safe haven. Yet the Army's relationship with Lashkar-e-Tayyiba, 
Jaish-e-Mohamed, the Haqqani Network, and the Afghan Taliban 
have proven resilient. These are the relationships that 
survived the tremendous fallout from 9/11 and the aftermath.
    While we have been deeply dissatisfied with Pakistan's 
counterterrorism efforts, once-friendly militants saw 
Pakistan's cooperation with the United States as a betrayal, 
and they turned their guns against their patron. For Pakistan, 
it has been the worst of both worlds.
    While the first rationale still dominates, all three 
reasons--the proxy group's utility against India and 
Afghanistan, their mitigation of the domestic threat and 
ability to worsen it, and the Pakistani State's limited ability 
to confront them--mutually reinforced the security 
establishment's ongoing relationship with militant proxies and 
ensure that these ties will remain intact for the foreseeable 
future.
    I admit that I am skeptical of Pakistani pledges that they 
will deal with the ``good militants'' once they have taken care 
of the hostile ones. The bad militants, in their view, are not 
going away, in part because they work closely with the good 
militants. In the meantime, the so-called good militants will 
grow stronger, and the Pakistani State will be even more--will 
have an even more difficult task confronting them in the 
future.
    I hope that by shedding light on the situation it will help 
the United States to better respond and manage the challenges 
ahead.
    With that, I thank you for your attention and look forward 
to your questions.
    [The prepared statement of Ms. Bacon follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you very much.
    This has been very, very enlightening. You know, when I 
have done town hall meetings back in my district, this probably 
gets more people's dander up than anything else. And I know 
when we have had votes on the floor to either defund or 
significantly reduce the funding to Pakistan, it has always 
done very well.
    Most of the voters that I come into contact with wonder why 
in the heck we give people money that actually aid and abet 
those that commit terrorist acts across the globe. The other 
thing that I have got to wonder, the other countries that we 
try to influence, don't they think we are a bunch of chumps? I 
mean, that is the other thing that I have got to wonder is, you 
know, they see us as being so stupid.
    And it kind of reminds me--you know, I wasn't there, but in 
some of the movies I have seen about how the old Mafia used to 
deal with businesses, come take money from them to protect 
them, so to speak, it kind of seems reminiscent of that to me. 
It is like paying the Mafia off, but no good is going to come 
of it in the end.
    So, Mr. Roggio, you suggested that we just cut off all 
funding completely to Pakistan and go ahead and move with 
whatever is required to declare them a State Sponsor of 
Terrorism, and then also, you know, look at limiting travel for 
those from Pakistan or the United States and possibly even look 
at trade.
    I am a believer that if we just cut off the funding, it is 
not going to be enough. If we just cut off the funding, I don't 
think it is going to be significant enough to them, to the 
other resources they get from the bad guys, and so I am 
wondering, why in the world have we continued to pursue this 
policy of, you know, I don't know, giving them money when we 
know all the bad things that they are doing. Why have we done 
this policy in the first place?
    I guess I could understand in the first place why we did 
it, because there was some assistance in the war with terrorism 
with Afghanistan. But now I don't understand the rationale. 
Could you or Ambassador--any of you--give me the rationale, why 
we are still doing it, do you--and what other options do we 
have right now?
    Ambassador Khalilzad. Well, I believe that part of the 
reason for continuing to pursue this approach has been the 
belief--and Pakistanis are very clever in manipulating us, I 
have to say that, number one--the belief that they are about to 
change. You cannot believe, Chairman, that so many times that 
they notice that things are moving possibly toward a change in 
our policy, then at that time they take an initiative to make 
it hard for us to then actually go through with it. So they 
know how to----
    Mr. Salmon. Work us.
    Ambassador Khalilzad. Right. And you have noticed recently 
when there has been, again, pressure on them to--isolating 
them, they reach out to distinguished Members of Congress, and 
they invite them for visits, they charm them, they promise, 
once again, and even exact statement from ourselves that are 
surprising in the face of facts as they are because we are a 
polite people and we don't want to insult our hosts.
    So I think the Pakistani ability to manipulate by their 
actions in part has been a factor, but----
    Mr. Salmon. We have been manipulated by a lot of countries. 
North Korea is an example. And, I mean, I will go back to there 
is a word for that. They are making chumps out of us.
    Ambassador Khalilzad. Well, they are playing--if I might 
use an undiplomatic term, but we have been patsies.
    Mr. Salmon. Patsy, chump.
    Ambassador Khalilzad. Yeah, right.
    Mr. Salmon. Idiot.
    Ambassador Khalilzad. Well----
    Mr. Salmon. Well, most Americans out there see through all 
of this, and yet, you know, our so-called leaders don't really 
get it. I can't even contemplate why on God's green earth we 
even thought for a nanosecond about the F-16 sale. I am glad 
that it has been scuttled, but none of it makes any sense at 
all.
    Mr. Roggio, you had a comment.
    Mr. Roggio. Yes, just quickly. I mean, I think with the F-
16 sales, I mean, obviously, someone is going to make money off 
of that, and there is a lobby in Congress, of course, to push 
sales through like that. No secret.
    But I also think that a lot of people in the case of the 
aid that is going to Pakistan do think that it is going to do 
good. But the reality is is the Pakistani madrassas are still 
cranking out thousands upon thousands of potential jihadists, 
who are going to join the Taliban or any of these other so-
called good militant groups, good Taliban groups.
    So whatever we are providing, it is not working. It is not 
changing Pakistani society. It is not changing Pakistani 
education. So I think there certainly is--I understand that we 
think we are doing good, but in the end, as you said, they are 
treating us like chumps. They recognize it, and we are more 
than willing to keep handing out money to Pakistan, so why 
wouldn't they take it?
    Mr. Salmon. I just have one other quick question, because 
we have all asked questions from the State Department when they 
have come about Dr. Afridi and what they have done to try to 
secure his release. And every time it is the same, you know, 
mantra, ``Oh, we talked to them about that.'' Are they doing 
enough?
    Mr. Roggio. Absolutely not. Look, he is being held in order 
to punish the United States for what we did to kill Osama bin 
Laden. By all rights, he should be a hero in Pakistan, as he is 
here, and he is being held to punish us, to punish him, and to 
send a message to any other Pakistani willing to help us that, 
if you go ahead and do this, this is your fate. Honestly, I am 
surprised he is alive.
    Mr. Salmon. Thank you.
    Mr. Sherman.
    Mr. Sherman. I will pick up right there. Ambassador, what 
if we cut half of all aid to Pakistan until Dr. Afridi and his 
family is here in the United States, what would be the reaction 
of the Pakistani Government? And do you expect the Pakistani 
people are going to riot in favor of imprisoning Dr. Afridi?
    Ambassador Khalilzad. Well, I think that making a lot of 
aid, you said half, conditional I think will have more of an 
impact. I don't anticipate----
    Mr. Sherman. Well, obviously, it has more of an impact on 
the feckless policy we have had so far, but----
    Ambassador Khalilzad. Right.
    Mr. Sherman [continuing]. What will be the reaction in 
Pakistan to that? Are they--first of all, at minimum, maybe 
they take us up on it, we save almost $1 billion. That would be 
a good thing to a lot of----
    Ambassador Khalilzad. Even if they don't take us up, we 
would have saved some money.
    Mr. Sherman. Right. That is the point I am making.
    Ambassador Khalilzad. Right. But I think that my experience 
in dealing with Pakistan is that they would only give you 
something when they know that you are----
    Mr. Sherman. Okay. Their counterargument on all this is 
they can't give us Dr. Afridi, because, oh my God, it will be 
some terrible circumstance in their country. If the Pakistani 
Government were to put Dr. Afridi and his family on a plane for 
the United States today, what harm would that Pakistani leader 
have tomorrow?
    Ambassador Khalilzad. No harm whatsoever, in my judgment, 
because some of these groups that rise on the street, all the 
groups that--based on long experience I can tell you that----
    Mr. Sherman. They were told to riot, yes.
    Ambassador Khalilzad [continuing]. When they raised these--
--
    Mr. Sherman. I want to go on to Mr. Roggio. The F-16s, they 
are going to be back, they are going to be asking for them. The 
argument is that these are the planes best suited to going 
after the terrorists in the frontier territories. Is there a 
weapon system that is less expensive, just as good as being a 
platform to survey, and to lob a missile at terrorists, and 
that poses less of a--and would not be useful in going after 
India? Something a lot less sophisticated.
    Mr. Roggio. Yes, absolutely. As a matter of fact, I would 
say F-16s or high advanced fighter planes are overkill in 
conducting counterinsurgency operations, low-tech planes that 
could loiter over the battlefield and deliver munitions.
    Mr. Sherman. So if they are trying to get a plane to go 
over the Haqqani Network, the F-16 is not the right choice.
    Mr. Roggio. It is not the right choice. We use aircraft 
like this in Iraq and Afghanistan because it is what we have 
and what we know. But there is certainly a lot better options 
available.
    Ambassador Khalilzad. Sorry. If I might add, if they would 
arrest first Jalaluddin Haqqani, that would be an indication 
that they are serious about going after the Haqqani Network.
    Mr. Sherman. Well----
    Ambassador Khalilzad. They move them around themselves to 
meetings and provide them with first-class housing. Made it a 
little hard to believe that they are going to move militarily 
against the Haqqani Network.
    Mr. Sherman. Let me ask Dr. Bacon. Okay. Even a second year 
law student has read 1,000 cases, could recognize when the 
judge is citing a precedent correctly or incorrectly. Let's say 
there is a fatwa that comes out relevant to your work at the 
State Department. Do you have a State Department office that 
can evaluate whether that fatwa was based on a strong hadith or 
a weak hadith? Who do you go to? Who knows?
    Ms. Bacon. When I was at the State Department--I left in 
2013--there were a number of experts on political Islam.
    Mr. Sherman. Political Islam. But were these people who had 
read 1,000 fatwas and who knew the difference between a strong 
and a weak hadith? Or were these Princeton graduates who had 
studied the history of the Ottoman Empire?
    Ms. Bacon. There were both. And within the intelligence 
community, there certainly are a number of people who are 
experts on it.
    Mr. Sherman. Well, let's go like to State Department. Is 
there a single person whose job description says they have got 
to be as knowledgeable about Islamic law and Islamic 
jurisprudence and Islamic theology as a graduate of the chief 
school, institute in Cairo, for example?
    Ms. Bacon. Especially when it comes to the countering 
violent extremism efforts, there has been a number of people 
who have been brought on to focus on----
    Mr. Sherman. Can you name somebody who would know----
    Ms. Bacon. I am no longer at the State Department, so I 
would defer to----
    Mr. Sherman. Okay. Who was there 2 years ago, 3 years ago?
    Ms. Bacon. There were several people in the Bureau of 
Intelligence and Research who were brought on for their 
expertise in Islam, but I don't know who is currently there.
    Mr. Sherman. Their expertise in Islam. So they have read 
English books on the history of the Ottoman Empire.
    Ambassador, is there anybody who is employed by the State 
Department who could pass the final exams at--I forget the 
name. I will----
    Ambassador Khalilzad. Al-Azhar.
    Mr. Sherman. Yes. Do we have--I know we have got a bunch 
that can pass the final exams at the highest levels at 
Princeton. Do we have a single person there that could pass 
medium to low grades, the institute I just----
    Ambassador Khalilzad. I have been out of the State 
Department now for 7 years, ago----
    Mr. Sherman. Okay. Seven years ago, did we have anybody?
    Ambassador Khalilzad. I don't remember that--that we did.
    Mr. Sherman. Okay. Dr. Bacon, if you could provide for the 
record that there is somebody at the State Department who isn't 
just an Ottoman history buff, but who has read thousands of 
fatwa, who was hired because they know the difference between a 
strong hadith and a weak hadith, either today or in 2013, that 
would be helpful.
    Thank you.
    Mr. Salmon. Thank you.
    Mr. Rohrabacher. And before I get to Mr. Rohrabacher, we 
have just been pinged for a vote on the floor. And we have 10 
votes, and I don't think we will be coming back afterwards. So 
if I could maybe get both you and Mr. Keating in.
    Mr. Rohrabacher. I will try.
    Mr. Salmon. Try. Thanks.
    Mr. Rohrabacher. All right. I will go quick. I will say for 
the record that the Pakistani Government, the ISI, created the 
Taliban, along with the Saudis, after we left when the Soviets 
withdrew from Afghanistan. Since that--at that time, the 
Pakistani Government was deeply involved with creating that 
regime that ended up offering safe haven to Osama bin Laden, 
and the murder of 3,000 Americans.
    Let us note, when we went to drive out the Taliban that the 
Northern Alliance, with our help and our support, drove the 
Taliban out. Where did they drive them to? Pakistan. Where did 
Osama bin Laden go? Osama bin Laden, the murder of 3,000 
Americans, was given safe haven for almost a decade in 
Pakistan. I don't know anyone who believes that the leadership 
of Pakistan did not know Osama bin Laden was there, right there 
in their country, in an urban area.
    Let us note that when our troops--when our brave special 
forces went to bring justice to Osama bin Laden, that they had 
to fly very specialized helicopters, so that they wouldn't be 
shot down. By whom? By Pakistan. With airplanes that we had 
given them. This is insane.
    Let us note that Pakistan still holds Dr. Afridi, the man 
who made it possible for us to identify Osama bin Laden, the 
murderer of 3,000 Americans, and they hold him in a dungeon 
today, which is nothing more than rubbing our face in the fact 
that they can do that and how much they really hate us. This is 
ridiculous that we give any aid whatsoever to a power like 
that.
    For the record, the people of Balochistan are being 
slaughtered by this corrupt, oppressive regime. The people of 
Balochistan have to understand--should understand the United 
States is on their side because they are struggling for 
independence and self-determination from a corrupt, vicious, 
terrorist-supporting regime.
    Same with the Sindhis. Same with other groups in 
Afghanistan. So we have a regime that murders and represses and 
is corrupt with their own people, and yet we still continue to 
give them some type of support. It is absolutely absurd.
    And, Ambassador Khalilzad, we have worked together many 
years, I am going to ask you a tough question. When the Taliban 
were driven out of Afghanistan and our friends in the Northern 
Alliance came in and took Kabul, there was a decision made in 
Bonn--and I think we were both at Bonn, Germany.
    The decision was, who was then going to be the leader of 
the new Afghanistan? Or at least in transition. I, of course, 
was pushing for King Zahir Shah, as were a group of us who had 
supported the Northern Alliance. It is my memory that you and 
the administration were supporting Karzai. Was that due to 
undue influence by the Pakistani Government on that 
administration, the Bush administration, as they have had undue 
influence on all of these administrations?
    Ambassador Khalilzad. Thank you for the statement with 
which I associate myself. Eloquently stated, Congressman. On 
this question of Karzai's choice, why Karzai was selected, the 
name of Karzai was first brought up by Abdullah Abdullah who 
was a key figure in the Northern Alliance at that time.
    Mr. Rohrabacher. Right.
    Ambassador Khalilzad. He argued that for the next phase of 
Afghanistan, Afghanistan needed a Pashtun leader that the 
Northern Alliance could work with, and he thought that Karzai 
was such a Pashtun. And this was the first time that we had 
heard of Karzai for such a role. And Jim Dobbins, my colleague 
who represented us at that time--and I was in the White House 
then--reported that.
    So, but then when we checked with others in the region and 
beyond, Pakistan did not object to President Karzai's choice, 
as well as quite a number of others.
    Mr. Rohrabacher. Let me note for the record that that was a 
pivotal decision that has led to problems. The problems that we 
are discussing today, the King of Afghanistan would have been 
much more independent, he was beloved by his people, he was a 
Pashtun, and we turned him down. And I honestly believe, like 
you said, we asked Pakistan for their opinions on it. Pakistan, 
of course, pushed for someone they could control, someone who 
would be consistent with their corrupt, repressive regime, and 
that was Karzai.
    Unfortunately, now we face this challenge today. Thank you 
for your service. Thank all of you for your opinions.
    Mr. Salmon. Thank you.
    Mr. Keating. And we have 4 minutes now before the votes. 
Sorry.
    Mr. Keating. Thank you, Mr. Chairman. Because of the time, 
I am going to just ask one question I think. And it is one that 
confuses the public to an extent, so it is confusion or it is 
downright obfuscation on the part of Pakistan.
    What is the role of the ISI? You know, the assassinated 
former Prime Minister Bhutto called the ISI a state within a 
state. So if you could, just in that timeframe that we have 
left, quickly comment on what you think that is. Are they a 
rogue element there that is not answerable to Prime Minister 
Sharif? How far does it go, in your opinion? You will have to 
be brief. I apologize.
    Ms. Bacon. I will be very brief. It is by no means a rogue 
institution within Pakistan, and it is not operating 
independently or on its own. It is an instrument and an arm of 
the Pakistani Army, and it is implementing the policies of the 
Pakistani Army. So it is not just a few officers, and it is not 
making policy up. It is implementing on behalf of the Pakistani 
Army.
    Mr. Roggio. Yes. I concur. It is an arm of the Pakistani 
military. It is executing the will of the Pakistani military, 
which is indeed the Pakistani State. The government is really 
just the face of the Pakistani military.
    Ambassador Khalilzad. I concur with my colleagues.
    Mr. Keating. That is great. We can all make our rollcall. 
Thank you very much for your very clear and frank testimony, 
and I yield back.
    Mr. Salmon. I thank the panel. We could go on several 
hours. You are amazing, and I really appreciate it.
    For the record, I personally believe that we should 
completely cut off all funding to Pakistan. I think that would 
be the right first step, and give that a chance to work. And 
then, if we don't see any changes, we move to some of the other 
suggestions, Mr. Roggio, a State Sponsor of Terrorism 
declaration, possible economic sanctions.
    And I personally believe that right now we have the worst 
policy that we could possibly have, and all we are doing is 
rewarding thugs.
    So I thank the panel very, very much. I thank the 
gentleman. And this committee is now adjourned.
    [Whereupon, at 3:01 p.m., the subcommittees were 
adjourned.]

 
                            A P P E N D I X

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
